HUMANITARIAN ASSISTANCE PROGRAMS OF THE
U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT


                hotograph of a thi




                    rd grade
                    elerated



     AUDIT AND INVESTIGATIVE FINDINGS
           FISCAL YEARS 1999–2009


                 March 2010
Cover photo: Cases of vegetable oil—bound for Afghanistan—being loaded onto a ship (November
2001).
CONTENTS

 Introduction....................................................................................................................1

 Review of Audits and Investigations .............................................................................1

      Significant Performance Audit Findings and Recommendations............................2

      Financial Audit Activity ..........................................................................................7

      Significant Investigative Activity ............................................................................8

 Conclusion and Areas for Examination .........................................................................9

 Appendix: Audit Reports, Fiscal Years 1999–2009 ....................................................11
                                INTRODUCTION

To date, the U.S. Agency for International Development (USAID) has committed over
$380 million to assist the victims of the recent earthquake in Haiti. Agency personnel
continue working to address immediate humanitarian needs, and in the weeks and months
to come, greater focus will be placed on reconstruction efforts and other long-term
measures to support the well-being of the Haitian people. Given the large amounts of
funding already expended, and in anticipation of additional funding being directed to
Haiti, USAID must ensure that funds provided for relief are not inadvertently exposed to
fraud and waste and that available resources are used for the greatest good.

USAID has a long history of providing humanitarian assistance. The Agency facilitates
and coordinates U.S. Government and emergency assistance overseas in an effort to
mitigate the effects of natural and manmade disasters. It distributes food to those who
have immediate needs and helps defray donors’ costs for transporting needed goods, such
as medical supplies and building equipment. In the past decade, USAID has provided
substantial humanitarian assistance to Latin America, the Caribbean region, Asia, and
Africa to help affected areas recover from hurricanes, earthquakes, and massive flooding,
as well as to address food insecurity. In fiscal year (FY) 2009 alone, the Agency
provided more than $1.4 billion in humanitarian assistance and food aid.

The current challenges in Haiti will require tremendous effort to overcome. USAID must
heed past lessons in the implementation of assistance programs to ensure that programs
and services are as effective as they can be. To assist implementers of USAID
humanitarian assistance programs, the Office of Inspector General (OIG) provides this
summary report to share perspective on issues it has identified in its oversight of
humanitarian assistance programs.

This report contains examples and suggestions to improve implementation of future
efforts. We hope that this report will aid those implementing recovery and rebuilding
programs and look forward to working with USAID to help address future challenges.

             REVIEW OF AUDITS AND INVESTIGATIONS

During FY 1999 through 2009, OIG conducted 67 performance audits and several
financial audits, and we opened nearly 100 investigations of USAID programs involving
humanitarian assistance activities.




                                            1
SIGNIFICANT PERFORMANCE AUDIT FINDINGS AND
RECOMMENDATIONS

Our review of performance audit reports over the past decade found that the majority of
reports have noted USAID’s accomplishments in implementing humanitarian assistance
programs. These accomplishments—detailed in the appendix to this report—included
repairing roads to improve commerce and refugee resettlement, increasing agricultural
production and rural incomes, and improving the health of individuals in targeted
communities.

Our review also identified several areas that the Agency should be aware of in its
implementation of humanitarian assistance programs. In particular, OIG performance
audits have highlighted the following areas for improvement:

•   Need for better contract or project management

•   Inability to obtain appropriate data from implementing contractors to make decisions
    about the effectiveness of programs

•   Unsatisfactory contractor performance

•   Noncompliance with regulations and procedures

•   Crosscutting issues, such as better coordination between partners and ensuring the
    sustainability of programs

Contract and Project Management

Contract and project management—by USAID personnel as well as implementing
personnel—has been problematic across all USAID program areas, including
humanitarian assistance. Implementing partners have been inconsistent in completing
required planning and performance documentation and conducting site visits. Insecure
conditions and lack of staffing have often exacerbated these problems. Contract and
project management problems were found in 45 percent of audits conducted of
humanitarian assistance programs between 1999 and 2009.

Examples:

USAID/Pakistan’s Earthquake Reconstruction Activities. Our FY 2009 audit of
USAID’s earthquake reconstruction activities in Pakistan found mixed results. The
livelihood activities program helped to increase rural incomes by 38.5 percent. However,
the mission had not completed any activities to construct schools or health facilities at the
time of the audit, thereby delaying the replacement of nearly 600 health care facilities and
1,500 educational buildings leveled by the earthquake. The audit found that contractor
performance reviews had not been consistently performed on all contractors, including




                                             2
one that had subcontracted with a nonperforming construction company. 1 In addition,
performance management plans had not been approved because the cognizant technical
officers believed that the approvals were the responsibility of the mission’s program
office. 2

USAID/Ukraine’s Displaced Children and Orphans Fund Activities. In November
2008, OIG issued a report on Ukraine’s activities to assist displaced children and
orphans. The purpose of this program was to develop sustainable services for children
who otherwise would be institutionalized or on the streets. Although the program had
completed most planned activities, OIG could not easily assess the program’s progress or
effectiveness because of changes in project emphasis, as well as weaknesses in
monitoring and reporting. Monitoring problems occurred, in part, because
USAID/Ukraine’s cognizant technical officer position had changed incumbents four
times during the life of the project, and the lack of continuity weakened the mission’s
monitoring efforts. Project monitoring problems also reflected a lack of management
oversight and reduced emphasis on program monitoring. To correct this situation, the
audit recommended that USAID develop a comprehensive directive on activity
monitoring that would require the periodic evaluation of planned and actual progress
toward the goals, objectives, and stated outputs of grants and contracts.

Internal Controls Over USAID Relief Commodities at the Port of Freetown in
Sierra Leone. In FY 2000, an OIG audit found that the regional Food for Peace office,
located in Mali, had not established necessary controls over relief commodities at the port
of Freetown in Sierra Leone. Operationally, USAID had no representative in Sierra
Leone to monitor or oversee its interests in the large humanitarian effort. The port
security personnel were unreliable, and without an onsite presence, USAID could not
prevent commodity losses. As a result, intended beneficiaries did not receive all planned
U.S. Government relief supplies. OIG recommended the use of private security
personnel to escort and guard U.S. Government relief supplies while they were being
discharged from ships to warehouses located outside the port. We also recommended
that USAID develop procedures to speed the unloading of emergency relief cargoes.


    1
      Regular, comprehensive, and conscientious performance evaluations provide missions with
information to make better acquisition decisions and are a significant incentive to implementing partners to
provide USAID with superior products and services. Further, the U.S. Government Accountability Office
has stated that failure to properly document contractor performance information and make it available for
use in source selections for the same or similar items is a sufficient basis to sustain a protest of a contract
award in a subsequent source selection.
    2
      Performance management is the systematic process of monitoring the results of activities; collecting
and analyzing performance information to track progress toward planned results; using performance
information to influence program decision making and resource allocation; and communicating results
achieved, or not attained, to advance organizational learning and tell the Agency’s story. Operating units
use the performance management plan to plan and manage the process of assessing and reporting progress
toward achieving a strategic objective. Without a formally approved performance management plan
between the mission and its implementing partners, partners risk straying from activities that support the
strategic objectives.



                                                       3
Data Quality and Reliability

In the dynamic environments in which USAID works, the Agency and its implementing
partners often have difficulty obtaining reliable, high-quality data to assist with program
implementation and evaluation. In some cases, performance metrics themselves have not
been structured to provide useful data and required reconsideration. In others, misleading
data has resulted in cost overruns or mistaken assumptions about the capabilities of local
workforces. Despite the difficulties USAID faces in obtaining data, the Agency needs
this information to make informed decisions about how well programs are working and
which implementers are best suited to carry them out. Nearly a quarter of humanitarian
assistance audits that OIG conducted over the past decade identified noteworthy data
quality or data integrity issues.

Examples:

USAID/Sudan’s Road Infrastructure Activities. OIG conducted an audit of Sudan’s
road infrastructure activities in FY 2009. Although this project to pave Sudanese roads—
and thus facilitate refugee resettlement and the transportation of humanitarian aid—
appeared to be on schedule, the lack of technical data and erroneous assumptions in the
contractor’s feasibility study caused the cost of the project to nearly double. The faulty
data led to a substantial underestimation of the materials required to complete the task.
Further increases resulted from the contractor’s inaccurate assumptions about the role the
Sudanese Government would play in ensuring that the roads were ready for paving, as
well as a lack of information about bridge repair and other maintenance issues. OIG
recommended that the Agency develop policies and procedures to help ensure that future
feasibility studies of USAID-funded projects receive adequate funding and scheduling.
We also recommended that USAID provide unambiguous instructions regarding the
nature and extent of technical analyses to be performed.

Office of Foreign Disaster Assistance Program in Iraq. For the 4 years ending in
September 2006, the USAID Office of Foreign Disaster Assistance (OFDA) provided
$190.7 million of humanitarian assistance to internally displaced persons and other
vulnerable populations in Iraq. Activities included programs to improve water,
sanitation, and health; to support livelihoods; and to provide emergency relief
commodities. OIG’s 2007 audit of these activities found that more than a third of
projects undertaken—principally those in the areas of health and livelihood support—
lacked sufficient supporting documentation to determine whether intended outputs had
been achieved. OIG recommended that OFDA develop and implement a system to
ensure that its implementing partners support performance data with readily available
documentation.

Followup Audit on USAID’s Disaster Assistance to Haiti. In FY 1998, USAID
devoted $20 million to a P.L. 480 Title II food program in Haiti that provided hot meals
for schoolchildren and supported food-for-work programs. Our followup audit on
disaster assistance to Haiti, conducted in FY 1999, found mixed results. Although
USAID/Haiti had improved its systems for tracking commodity losses, the mission had



                                            4
not improved its food monitoring system. Our previous audit had found that while a
significant amount of data had been gathered on program implementation, there had been
no analysis to identify which aspects of the program had been successful and which had
suffered systemic or recurring problems. Our followup audit found the mission’s data-
analysis capabilities to be minimal, fragmented, and obsolete. OIG recommended that
the mission upgrade its food monitoring unit systems.

Performance of Program Implementers

Contractor and grantee performance is one of the most important issues for USAID to
consider as it makes decisions about which implementing partners to use in humanitarian
assistance efforts, particularly for reconstruction efforts. Our audits of these programs
have highlighted past performance problems that have involved cost overruns,
substandard construction, and a lack of proper coordination and planning. Ten percent of
our audits of humanitarian assistance programs have identified these kinds of problems.

Examples:

USAID/Sri Lanka’s Tsunami Recovery and Reconstruction Program Selected
Outputs Implemented by Development Alternatives, Inc. Our June 2007 audit of
work following the 2004 Asian tsunami found that the implementer had not performed as
expected. During the project’s original performance period of almost 8 months, the
implementer did not execute planned repairs and improvements to seven roads. The
implementer subsequently amended its work expectations to reduce the quantity of
roadwork for which it was responsible, while simultaneously increasing the award by
more than $100,000. OIG recommended that USAID reevaluate the terms of the award
and determine whether to allow Development Alternatives, Inc., to continue with planned
activities or to put USAID funds to better use.

USAID/Jamaica’s Hurricane Recovery and Rehabilitation Activities. Funding for
reconstruction activities in Jamaica and Grenada following Hurricane Ivan (2004) was
provided to several implementers: Planning and Development Collaborative
International, the CARANA Corporation, Development Alternatives, Inc., the Jamaica
Exporters Association, and Wingerts Consulting. Multiple problems were found during
our 2006 audit: Housing construction had not been completed on schedule, and the cost
of new houses in Grenada was one-third to one-half higher than the cost of comparable
houses in Jamaica and more than double the cost of comparable houses financed by the
Government of Jamaica. In addition, auditors found more than $60,000 of ineligible
costs charged to the program. To address these issues, OIG recommended that USAID
formulate revised targets for the program, develop a plan to complete construction of new
houses and turn them over to beneficiaries, control the costs associated with any
additional subcontracts, recover ineligible costs that were charged to USAID, and ensure
completion of reconstruction work financed by USAID.

USAID/Haiti’s Tropical Storm Reconstruction Program. Our 2005 audit of USAID’s
oversight of the Tropical Storm Reconstruction Program showed that the mission had



                                            5
taken positive steps to mitigate some program risks. It scheduled biweekly meetings with
the implementing partners and required work plans from them; conducted monthly field
visits; hired monitoring firms; preapproved engineering plans; and arranged for
environmental reviews and approvals. The audit report did not make any
recommendations. However, it noted that prior to January 2005, neither the engineering
monitoring firm nor Haiti’s chief engineer had approved project plans. Moreover,
contractors had not obtained required environmental approvals before beginning
construction.

Regulations and Procedures

USAID humanitarian assistance efforts are subject to an array of regulatory and
procedural requirements intended to promote adherence to applicable law and policy.
Failure to comply with applicable procedures and regulations produces inconsistencies in
program implementation that can contribute to a perception that programs are managed
arbitrarily and that the Agency does not fulfill its legal obligations. Our audits have
revealed regulatory and procedural compliance issues in 10 percent of the humanitarian
assistance programs we have examined.

Examples:

USAID/Mozambique’s Railroad Rehabilitation Project. USAID efforts to restore the
flood-damaged Limpopo Rail Line prior to 2005 were hampered by mission compliance
shortcomings. USAID directives state that missions must annually evaluate and report on
contractor performance. However, USAID/Mozambique overlooked this requirement
and neglected to follow up on adverse indications about the work of an engineering
consulting firm in an earlier evaluation. Because the mission failed to adhere to Agency
policy, contractor performance issues could have continued unnoticed, and such issues
would not have come to the attention of other U.S. Government agencies considering
related procurements. OIG recommended that USAID evaluate and document the
performance of the engineering consulting firm.

USAID/Guatemala’s Direct Food Aid Distribution Program. Our 2003 audit of
USAID/Guatemala’s food aid distribution program found that food assistance was
generally delivered to the intended recipients in accordance with existing agreements.
However, we also learned that one cooperating sponsor had required beneficiaries to
make a payment to receive their food ration—a practice not allowed by regulation. In
particular, the implementing partner had required maternal/child health program
participants to pay a monthly contribution in exchange for their food rations to offset the
substantial cost of transporting commodities. This practice may have limited the
program’s effectiveness in improving health and reducing malnutrition and, moreover, is
contrary to USAID policy. We recommended that the mission notify the implementing
partner in writing of this requirement and monitor cooperating sponsors to prevent this
practice in the future.




                                             6
Crosscutting Issues

We identified several crosscutting issues during the course of our audits that, although
not prevalent, are significant enough to reference. As shown in the examples above,
these issues include the need for improved coordination among development partners,
better efficiency in partners’ operations, a consideration of program sustainability,
sufficient training for development partners and USAID personnel, and improvements in
the oversight of funding. The following examples further illustrate these points.

USAID/Indonesia’s Tsunami-Related Housing Construction Activities Implemented
by Cooperative Housing Foundation International. USAID/Indonesia’s goal in
constructing 1,000 new houses was to provide an estimated 5,000 beneficiaries an
opportunity to return to a home. OIG’s 2008 audit found that, although the contractor
had completed construction of 582 houses, not all were occupied and benefiting the
intended beneficiaries. Two factors contributed to the less than full occupancy rates:
USAID/Indonesia had not required the contractor to develop and enforce practical criteria
for ensuring that intended beneficiaries were occupying the houses, and problems arose
with land entitlement. As a result, some houses funded with foreign assistance dollars
remained empty and at risk of vandalism instead of providing shelter for intended
beneficiaries.

Houses remained unoccupied, in part, because of social and economic circumstances.
Some individuals—especially single mothers and orphans—chose to remain in existing
barracks because of close social ties. Some houses were far from job opportunities, and
others lacked electricity and adequate water systems. OIG made two recommendations
requiring a review of beneficiary criteria and a plan to ensure occupancy of the houses.

USAID/India’s Food Aid Activities. USAID’s food assistance program in India was
intended to improve child survival and nutrition in a nation in which more than half of all
young children are underweight and 1 of every 11 dies before age 5. However, OIG’s
2002 audit found that the program’s food shipments had been detained by the
Government of India because cooperating partners had not complied with USAID
regulations requiring them to obtain all the necessary import permits, licenses, and other
appropriate approvals for entry and transit of program commodities in India. Moreover,
the Government of India was arbitrarily applying different agricultural inspection
requirements at different posts. Resulting delays led to additional program expenses for
commodity storage and contributed to food outages at numerous feeding sites. To
prevent future such delays, we recommended that USAID/India establish an action plan
to obtain all necessary approvals from the Government of India for the importation of
certain program food commodities.

FINANCIAL AUDIT ACTIVITY

OIG performs and oversees regular financial statement audits of USAID and its
implementing partners. These financial audits have questioned large amounts of program
costs; many of these questioned costs have been sustained and have resulted in savings


                                             7
for the Agency. It is not possible, however, to determine the exact level of savings this
work has produced in relation to humanitarian assistance activities because many such
financial audits examine entire organizations and do not focus exclusively on
implementing partners’ participation in USAID-funded humanitarian assistance efforts.

During significant humanitarian assistance efforts, we perform risk assessments of
planned activities to prioritize our workload and to determine the appropriate type of
audit coverage for each assistance activity. OIG’s experience with humanitarian
responses to large-scale disasters has shown that concurrent financial audits of high-risk
programs (i.e., audits conducted while programs are being implemented) can pay
important dividends. Such concurrent audits can prevent and detect fraud and misuse of
funds at an early stage, addressing these issues before associated costs grow. In
determining which activities to target with concurrent audits, we consider previous
experience with the contractor or grantee, the level of financial investment, the inherent
risks associated with specific types of programs, and any compensating program
procedures or controls that help mitigate risks.

SIGNIFICANT INVESTIGATIVE ACTIVITY

OIG is committed to investigating allegations of waste, fraud, and abuse within USAID
programs. We have investigated allegations involving program and employee integrity,
including conspiracy, collusive bidding, falsification of documents, commodity diversion,
failure to report losses, attempted bribery, and attempted intimidation of program
implementers. Examples of some of those investigations follow.

Several OIG investigations related to humanitarian assistance programs have identified
theft and fraud on the part of implementing partners’ employees. Three individuals have
been indicted, for example, as a result of an ongoing OIG investigation into allegations
that commodities provided under a USAID-funded food distribution program never
reached intended beneficiaries. Charges included conspiracy, mail and wire fraud,
tampering with a witness, and false claims. Our investigation revealed that some of the
reported recipient communities for the commodities did not exist and that documentation
of the distribution and receipt of the goods had been falsified by representatives of the
nongovernmental organizations responsible for implementing the program. These
employees were accused of selling the food in local markets and keeping the profits.
They were also alleged to have used USAID-funded construction materials to build
themselves multiple houses.

In 2006, OIG initiated an investigation of an alleged theft of program funds from a
USAID contract in Liberia. OIG was able to establish that a former accountant for the
USAID contractor had embezzled approximately $250,000 in program funds by cashing
business checks, entering fictitious program expenses into the contractor’s accounting
software, and creating a second, falsely inflated local payroll. As a result of our
investigation, the accountant was indicted on multiple counts of wire fraud, mail fraud,
and theft from a program receiving Federal funds. The defendant is awaiting extradition.




                                             8
In August 2005, OIG initiated an investigation regarding whether a USAID/Angola
contractor had falsified payment receipts for drivers who were responsible for the
transportation and delivery of food commodities. The investigation revealed that the
contractor’s former provincial representative had falsified payment receipts and waybills
to conceal the theft of more than $175,000 in program funds. The individual was
indicted on six counts of mail fraud, and extradition proceedings are underway.

OIG investigative work also supports the integrity of the Agency’s own workforce. In
2001, for instance, an OIG investigation revealed that a senior USAID Foreign Service
National employee, who was managing a contract program, had pressured the contractor
to hire the employee’s friend. As a result of our investigation, the employee received a
written reprimand.

OIG investigations have helped the Agency recover funds and expedite payments. In one
case, for example, OIG determined that a freight forwarding company, under contract
with a USAID-sponsored private voluntary organization for delivering P.L. 480 Title II
food shipments, was inappropriately withholding funds from ocean carriers. Some of
these carriers had, in turn, threatened to cease food shipment deliveries and jeopardize
food assistance to program beneficiaries. After OIG confronted the freight forwarding
company with evidence that it had been withholding $4.8 million in USAID funds from
these ocean carriers, the firm immediately began making appropriate payments to them
until all of its associated outstanding bills had been paid.

          CONCLUSION AND AREAS FOR EXAMINATION
We commend USAID for the rapid steps it has taken to provide humanitarian assistance
in the wake of disasters. To help refine those efforts, OIG suggests that the Agency
consider the following areas of examination to help safeguard funds so that they can be
used for the greatest benefit and so that programs can be implemented effectively.

•   Ensure that all personnel responsible for oversight of the implementation of
    humanitarian assistance programs fully understand their roles and responsibilities.

•   Provide for sufficient internal and security controls over relief commodities.

•   Maintain continuity of program oversight personnel, to the extent possible.

•   Discuss requirements with local communities and governments to tailor programs to
    their needs.

•   Carefully consider past performance of implementers prior to entering into new
    grants and contracts.

•   Place priority on ensuring that all contract and grant oversight requirements are met—
    for example, that performance management plans are in place or that frequent site
    visits are conducted.


                                             9
•   Work with implementers to develop effective performance metrics and require them
    to produce timely, accurate data so that USAID can evaluate programs.

•   Ensure that necessary environmental and engineering reviews have been conducted
    for all construction projects.

•   Facilitate coordination among implementing partners.

These are just a few of the areas that USAID might examine as future humanitarian assistance
programs are implemented throughout the world, particularly in efforts to help Haiti recover
from this most recent disaster. The Office of Inspector General looks forward to working
with USAID as it addresses critical issues related to humanitarian assistance in the
months and years ahead.




                                             10
                                     AUDIT REPORTS
                                   Fiscal Years 1999–2009

This table lists USAID audit reports and describes the types of findings noted by OIG in
its audits.


  Performance Audit Report                 Issues Identified           Recognized Accomplishments
                                 y Security problems that prevent
                                   monitoring or accomplishment of
                                                                       y The project was likely to
Audit of USAID/Sudan’s             mission
                                                                         achieve main goals.
Road Infrastructure Activities   y Unreliable or insufficient data
                                                                       y The Juba-Nimule Road was
Report No. 4-650-09-009-P        y Noncompliance with regulations
                                                                         being used in refugee
(September 28, 2009)               or procedures
                                                                         resettlement.
                                 y Insufficient coordination among
                                   development partners
                                 y Need for employee training
                                 y Contract procedures not followed
Audit of USAID/Pakistan’s
                                 y Inadequate contract or project      y Livelihoods activities
Earthquake Reconstruction
                                   management                            program has contributed to
Activities
                                 y Unreliable or insufficient data       increasing rural incomes by
Report No. 5-391-09-001-P
                                 y Security problems that prevent        38.5 percent.
(November 25, 2008)
                                   monitoring or accomplishment of
                                   mission
Audit of USAID/Ukraine’s
Displaced Children and
                                 y Inadequate contract or project
Orphans Fund Activities
                                   management
Report No. 9-000-09-002-P
(November 20, 2008)
                                                                       y The implementing partner
Audit of USAID/Rwanda’s
                                                                         generally delivered
Distribution of P.L. 480 Title
                                 y Unreliable or insufficient data       commodities to intended
II Nonemergency Assistance
                                 y Possible funds control violations     beneficiaries.
in Support of its Direct Food
                                 y Inadequate contract or project      y Communities experienced
Aid Distribution Program
                                   management                            improved health and
Report No. 4-696-08-003-P
                                                                         increased agricultural
(April 30, 2008)
                                                                         productivity.

Audit of USAID/Iraq’s            y Recommendation for funds to be      y USAID complied with
Management of the Marla            put to better use                     provisions contained in
Ruzicka Iraqi War Victims        y Risk to project’s sustainability      public laws to help ensure
Fund                             y Security problems that prevent        that funds appropriated for
Report No. E-267-08-002-P          monitoring or accomplishment of       the Marla Fund were used as
(April 3, 2008)                    mission                               intended.

Audit of USAID/Indonesia’s
Tsunami-Related Housing
Construction Activities
                                                                       y The implementing partner
Implemented by Cooperative       y Risk to project’s sustainability
                                                                         achieved planned results in
Housing Foundation               y Inefficient operations
                                                                         building houses.
International
Report No. 5-497-08-002-P
(January 31, 2008)


                                                  11
 Performance Audit Report                   Issues Identified            Recognized Accomplishments

Audit of USAID’S
Management of P.L. 480
Nonemergency Monetization         • Capping report—issues
Programs                             previously identified
Report No. 9-000-07-010-P
(September 27, 2007)
                                  y Unreliable or insufficient data
Audit of the Office of Foreign
                                  y Inadequate contract or project
Disaster Assistance Program
                                    management                          y Majority of OFDA outputs
in Iraq
                                  y Security problems that prevent        achieved intended results.
Report No. E-267-07-006-P
                                    monitoring or accomplishment of
(July 11, 2007)
                                    mission
Audit of USAID/Indonesia’s
Aceh Road Reconstruction
                                   y Inadequate contract or project
Project Under Its Tsunami
                                     management
Program
                                   y Inefficient operations
Report No. 5-497-07-008-P
(July 11, 2007)
Audit of USAID/Armenia’s
Energy and Water Sector
                                  y Inadequate contract or project      y Program achieved most of its
Reform Program
                                    management                            planned outputs.
Report No. 8-111-07-002-P
(June 26, 2007)
Audit of USAID/Sri Lanka’s
Tsunami Recovery and
Reconstruction Program            y Unsatisfactory contractor
Selected Outputs Implemented        performance                         y Outputs were generally
by Development Alternatives,      y Recommendation for funds to be        achieved.
Inc.                                put to better use
Report No. 5-383-07-007-P
(June 22, 2007)
Audit of Critical Activities
Financed by USAID Regional
Development Mission/Asia’s
                                  y Performance targets not met
U.S. Indian Ocean Tsunami
                                  y Unreliable or insufficient data
Warning System Program
Report No. 5-486-07-003-P
(February 27, 2007)

                                                                        y Several outputs were
Audit of USAID/West
                                                                          achieved at 100 percent or
Africa’s Management of the
                                                                          higher by both cooperating
P.L. 480 Nonemergency             y Unreliable or insufficient data
                                                                          sponsors, demonstrating a
Monetization Program in           y Inadequate contract or project
                                                                          positive impact.
Burkina Faso                        management 3
                                                                        y Program activities were well
Report No. 7-624-07-001-P
                                                                          managed and supervised by
(February 27, 2007)
                                                                          USAID staff members.



   3
       Monitoring and reporting by cooperating sponsors could be improved.


                                                   12
 Performance Audit Report               Issues Identified         Recognized Accomplishments

                                                                  y Farming techniques were
                                                                    improved to produce higher-
                                                                    yield, disease-resistant crops
Audit of
                                                                    that have high nutritional
USAID/Mozambique’s
                              y Unreliable or insufficient data     value.
Management of P.L. 480
                              y Inadequate internal controls      y Monetization activities have
Nonemergency Monetization
                              y Inadequate contract or project      helped local communities by
Program
                                management                          training volunteers who then
Report No. 4-656-07-003-P
                                                                    teach communities to use
(December 22, 2006)
                                                                    locally available foods to
                                                                    prepare nutrient-rich diets for
                                                                    their children.
Audit of USAID/Sri Lanka’s
Large-Scale Infrastructure
Rebuilding Activities Under                                       y Most large-scale
                              y Delays in approval of contract
Its Sri Lanka Tsunami                                               infrastructure targets were
                                modification requests
Reconstruction Program                                              met within cost estimates.
Report No. 5-383-07-001-P
(November 30, 2006)
                              y Unsatisfactory contractor
Audit of USAID/Guatemala’s
                                performance
Management of Its P.L. 480
                              y Questioned costs
Nonemergency Monetization
                              y Inadequate contract or project
Program
                                management
Report No.1-520-07-002-P
                              y Inefficient operations
(November 27, 2006)
                              y Suspected fraud
Audit of USAID/Haiti’s
Management of P.L. 480 Non-
                              y Inadequate contract or project
Emergency Monetization
                                management
Program
                              y Absence of strategic plan
Report No. 9-521-06-010-P
(September 28, 2006)
Audit of USAID/Indonesia’s
Tsunami Recovery and
                                                                  y Recovery and reconstruction
Reconstruction Program        y Inadequate contract or project
                                                                    efforts were completed as
Activities Implemented by       management
                                                                    planned.
Development Alternatives,     y Funds-control procedures needed
                                                                  y Other activities were
Inc.                            improvement
                                                                    progressing.
Report No. 497-06-009-P
(September 15, 2006)
                              y Unsatisfactory contractor
Audit of USAID/Jamaica’s
                                performance
Hurricane Recovery and
                              y Inefficient operations
Rehabilitation Activities
                              y Questioned costs
Report No. 1-532-06-004-P
                              y Inadequate contract or project
(April 28, 2006)
                                management




                                               13
 Performance Audit Report                 Issues Identified         Recognized Accomplishments

Audit of USAID/Indonesia’s
Banda Aceh-Lamno Road
                                y Inadequate contract or project
Reconstruction Activities                                           y The contractor implemented
                                  management
Under Its Tsunami Recovery                                            some road construction
                                y Insufficient coordination among
and Reconstruction Program                                            projects.
                                  development partners
Report No. 5-497-06-003-P
(March 30, 2006)
Audit of USAID/WARP’s
                                y Insufficient coordination among
Management of
                                  development partners              y Most environmental and food
Environmental and Food
                                y Unreliable or insufficient data     security programs were on
Security Programs
                                y Inadequate contract or project      schedule to achieve results.
Report No. 7-624-06-002-P
                                  management
(January 31, 2006)
Audit of Funds Earmarked by
Congress to Provide
Assistance for Displaced        y Recommendation for funds to be
Persons in Afghanistan            put to better use
Report No. 9-306-06-004-P
(December 21, 2005)
Audit of USAID/Colombia’s
Internally Displaced Persons
Program                         y Unreliable or insufficient data
Report No. 1-514-05-009-P
(July 5, 2005)
Audit of USAID/Jamaica’s
                                y Unsatisfactory contractor
Hurricane Recovery and
                                  performance
Rehabilitation Program
                                y Funds control procedures needed
Report No. 1-532-05-008-P
                                  improvement
(April 12, 2005)
Audit of USAID/Haiti’s
Tropical Storm Reconstruction
                                y Unsatisfactory contractor
Program
                                  performance
Report No. 1-521-05-007-P
(April 8, 2005)
Audit of
USAID/Mozambique’s
                                                                    y The mission successfully
Performance Monitoring of
                                y Noncompliance with regulations      implemented and monitored
Railroad Rehabilitation Under
                                  or procedures                       efforts but no contractor
the Southern Africa Floods
                                                                      evaluation was conducted.
Report No. 4-656-05-001-P
(November 4, 2004)
Audit of USAID/El Salvador’s
Reconstruction of Schools,
Healthcare Facilities, and
                                                                    y The majority of projects were
Other Infrastructure Projects
                                                                      completed or were projected
Under the Earthquake
                                                                      to be completed on schedule.
Reconstruction Program
Report No. 1-519-04-009-P
(August 10, 2004)




                                                 14
  Performance Audit Report                  Issues Identified             Recognized Accomplishments

 Audit Follow-up Review of
 Recommendations Nos. 1 and
 2 from the Audit of
 USAID/Mozambique’s
                                                                         y The mission took action to
 Performance Monitoring of
                                                                           ensure completion of road
 Road Repair and
                                                                           construction and evaluated
 Reconstruction Activities
                                                                           performance of two
 Funded by the Southern Africa
                                                                           engineering consulting firms.
 Floods Supplemental
 Appropriations
 Report No. 4-656-03-001-P
 (April 23, 2004)
 Audit of
 USAID/Madagascar’s
                                                                         y The mission was successful
 Performance Monitoring of
                                                                           in rehabilitating and repairing
 Road and Rail Repair and
                                                                           233 kilometers of roads,
 Reconstruction for Southern
                                                                           163 kilometers of the national
 Africa Flood Relief
                                                                           rail line, three warehouses,
 Supplemental Appropriations
                                                                           and a wharf.
 Report No. 4-687-04-006-P
 (April 15, 2004)
 Audit of USAID’s
                                                                         y Missions generally
 Distribution of P.L. 480 Title   y Inadequate contract or project         maintained regular contact
 II Non-Emergency Assistance        management                             with cooperating sponsors,
 in Support of Its Direct Food    y Noncompliance with regulations         conducted periodic site visits,
 Aid Distribution Program
                                    or procedures 4                        and received required reports
 Report No. 9-000-04-002-P
                                                                           from cooperating sponsors.
 (March 31, 2004)
 Audit of the Post-Project
 Condition of Roads and
 Bridges Constructed in
 Honduras Under the
                                  y Risk to project’s sustainability
 Emergency Reconstruction of
 Roads and Bridges Activity
 Report No. 1-522-04-006-P
 (March 3, 2004)

 Follow-up Audit of USAID/El
                                                                         y Seven of eight housing
 Salvador Housing Project
                                                                           reconstruction activity
 Under the Earthquake
                                                                           implementers were on
 Reconstruction Program
                                                                           schedule to complete their
 Report No. 1-519-04-005-P
                                                                           planned houses.
 (February 17, 2004)




    4
     Site visits were not always performed regularly or systematically and sometimes were limited in
scope.


                                                   15
 Performance Audit Report                  Issues Identified          Recognized Accomplishments


                                                                      y The mission generally
                                                                        ensured that food aid was
                                                                        delivered to intended
Audit of USAID/Ethiopia’s                                               beneficiaries, conducted
Distribution of P.L. 480 Title                                          periodic site visits to
II Non-Emergency Assistance                                             sponsors’ warehouses and
                                  y Inadequate contract or project
in Support of Its Direct Food                                           distribution centers, reviewed
                                    management 5
Aid Distribution Program                                                relevant program reports, and
Report No. 4-663-04-002-P                                               held meetings with
(November 21, 2003)                                                     cooperating sponsors and
                                                                        beneficiaries on program
                                                                        implementation and
                                                                        effectiveness.

Audit of the Management of        y Inefficient operations
USAID/Haiti’s P.L. 480 Title      y Noncompliance with regulations
II Food Program                     or procedures
Report No. 1-521-04-001-P         y Insufficient coordination among
(October 20, 2003)                  development partners
Audit of USAID/Ghana’s                                                y Aid distribution programs
Distribution of P.L. 480 Title    y Inadequate contract or project      delivered food to intended
II Non-Emergency Assistance         management                          beneficiaries in accordance
in Support of Its Direct Food     y Unreliable or insufficient data     with agreements.
Aid Distribution Program          y Recommendation for funds to be    y Cooperating sponsors
Report No. 7-641-04-001-P           put to better use                   improved program
(October 15, 2003)                                                      monitoring.
                                                                      y Food assistance was
                                                                        generally delivered to the
                                                                        intended recipients in
Audit of USAID/Guatemala’s                                              accordance with agreements.
Distribution of P.L. 480 Title                                        y The mission performed
II Non-Emergency Assistance                                             adequate monitoring to
                                  y Noncompliance with regulations
in Support of Its Direct Food                                           ensure that recipients
                                    or procedures
Aid Distribution Program                                                generally received their food.
Report No. 1-520-03-008-P                                             y Personnel from the
(September 26, 2003)                                                    cooperating sponsors, a sub-
                                                                        recipient, and USAID were
                                                                        aware of their responsibilities
                                                                        under the program.




   5
       In some cases, monitoring needed improvement.


                                                  16
 Performance Audit Report                  Issues Identified             Recognized Accomplishments

Audit of
USAID/Madagascar’s
Distribution of P.L. 480 Title   y Inadequate contract or project
                                                                         y The mission adequately
II Non-Emergency Assistance        management
                                                                           monitored some food
in Support of Its Direct Food    y Recommendation for funds to be
                                                                           assistance program activities.
Aid Distribution Program           put to better use
Report No. 9-687-03-010-P
(September 24, 2003)
Survey of Principal Processes
Used to Manage Funds
Provided Under the P.L. 480,
Title II Program
Report No. 9-000-03-001-S
(May 23, 2003)
Audit of
                                                                         y The mission generally
USAID/Mozambique’s
                                                                           implemented and monitored
Performance Monitoring of
                                                                           activities in accordance with
Road Repair and                  y Unsatisfactory contractor
                                                                           USAID policies and
Reconstruction Activities          performance
                                                                           procedures.
Funded by the Southern Africa    y Inadequate contract or project
                                                                         y Four of five planned project
Floods Supplemental                management
                                                                           activities were on target for
Appropriations
                                                                           completion within established
Report No. 4-656-03-001-P
                                                                           time and budget limitations.
(January 31, 2003)
Audit of USAID/El Salvador-      y Performance targets not met
Financed Housing                 y Insufficient coordination among
                                                                         y Project beneficiaries all met
Reconstruction Activities          development partners
                                                                           eligibility criteria.
Report No. 1-519-03-001-P        y Inadequate contract or project
(November 19, 2002)                management
Summary Report on Audits of
USAID Assistance Provided
Under the Central America
and the Caribbean Emergency
Disaster Recovery Fund
(CACEDRF) Supplemental
Appropriation
Report No. 1-598-02-003-S
(September 3, 2002)
                                 y Law, regulation, or internal policy
                                   not adequately followed
Audit of USAID-Financed
                                 y Lack of host country support          y The mission and its partners
P.L. 480 Title II Food Aid
                                 y Noncompliance with regulations          generally monitored food aid
Activities in India
                                   or procedures                           to ensure that it reached the
Report No. 5-386-02-003-P
                                 y Unreliable or insufficient data         intended beneficiaries.
(August 29, 2002)
                                 y Need for employee training
                                 y Questioned costs




                                                  17
 Performance Audit Report                 Issues Identified         Recognized Accomplishments

                                                                    y The mission and its
                                                                      implementing partner boosted
                                                                      production of a water-
Concurrent Audit of                                                   purifying solution, expanded
USAID/Madagascar’s                                                    its availability, and increased
Performance Monitoring of                                             sales beyond target levels. It
Selected Health Services                                              also built up prepositioned
Funded by the Southern Africa                                         stockpiles of the solution for
Floods Supplemental                                                   rapid response to future
Appropriation                                                         disasters and cholera
Report No. 4-687-02-005-P                                             outbreaks.
(June 21, 2002)                                                     y The mission exercised
                                                                      appropriate management over
                                                                      the contractor and monitored
                                                                      project activities as needed.
Audit of the Eastern Caribbean
Regional Reconstruction
Activities Financed Under the
                                                                    y Disaster reconstruction
Central America and the
                                                                      activities were on schedule to
Caribbean Emergency Disaster
                                                                      achieve planned outputs.
Recovery Fund
Report No. 1-538-02-008-P
(April 1, 2002)
                                                                    y The program had served
                                                                      intended numbers of
Audit of USAID/Haiti’s P.L.
                                                                      beneficiaries and achieved
480 Title II Program             y Inadequate contract or project
                                                                      planned outputs.
Report No. 1-521-02-006-P          management
                                                                    y Program commodities were
(January 28, 2002)
                                                                      adequately protected against
                                                                      loss and diversion.
Audit of USAID/Honduras-                                            y Mission-financed credit
Financed Credit Activities                                            activities were on schedule to
Under the Central America                                             achieve planned outputs.
and the Caribbean Emergency                                         y The mission had
Disaster Recovery Fund                                                implemented an adequate
Report No. 1-522-02-001-P                                             monitoring system for its
(October 1, 2001)                                                     activities.
Audit of USAID/Guatemala-
Financed Agriculture
Activities Under the Central
                                 y Inadequate contract or project   y Most audited activities were
America and the Caribbean
                                   management                         on schedule to achieve
Emergency Disaster Recovery
                                 y Need for employee training         planned outputs.
Fund
Report No. 1-520-01-010-P
(August 16, 2001)




                                                 18
 Performance Audit Report               Issues Identified           Recognized Accomplishments

                                                                    y Steps were taken to ensure
                                                                      that grants were delivered to
                                                                      intended recipients in
                                                                      accordance with applicable
Concurrent Audit of
                                                                      agreements.
USAID/Mozambique’s
                                                                    y The mission identified
Resettlement Grant
                                                                      beneficiaries through
Distribution Activity
                                                                      effective coordination with
Report No. 4-656-01-005-P
                                                                      the host government and
(July 31, 2001)
                                                                      affected communities.
                                                                    y Project activities were
                                                                      conducted in an orderly and
                                                                      secure manner.
Audit of USAID/Nicaragua’s
                               y Unsatisfactory contractor
Water and Sanitation
                                 performance
Activities
                               y Recommendation for funds to be
Report No. 1-524-01-008-P
                                 put to better use
(July 25, 2001)
                                                                    y Reconstruction activities
Audit of USAID/Honduras’s
                                                                      were on schedule to be
Hurricane Mitch Housing
                                                                      completed.
Reconstruction Activities
                                                                    y Contractor completed
Report No. 1-522-01-006-P
                                                                      substantially more shelters
(July 18, 2001)
                                                                      than initially anticipated.
                                                                    y Most projects were on
Audit of USAID/Haiti’s
                                                                      schedule to be completed.
Hurricane Georges Recovery
                               y Recommendation for funds to be     y OIG recommended
Program
                                 put to better use                    deobligation of funds for
Report No. 1-521-01-005-P
                                                                      those that would not be
(May 15, 2001)
                                                                      completed.
Audit of USAID/Honduras’s
                               y Inadequate contract or project
Water and Sanitation
                                 management
Reconstruction Activities
                               y Noncompliance with regulations
Report No. 1-522-01-003-P
                                 or procedures
(March 7, 2001)
USAID/Dominican Republic’s
Housing Reconstruction         y Delays in approval of contract
                                                                    y Construction projects were on
Activities                       modification requests
                                                                      schedule for completion.
Report No. 1-517-01-001-P      y Contract procedures not followed
(December 1, 2000)
USAID/Guatemala’s Road
and Bridge Repair Activities   y Inadequate contract or project     y Construction projects were on
Report No. 1-520-00-006-P        management                           schedule for completion.
(September 27, 2000)




                                               19
                                 y Inadequate internal controls
Internal Controls Over USAID
                                 y Security problems that prevent
Relief Commodities at the Port
                                   monitoring or accomplishment of
of Freetown in Sierra Leone
                                   mission
Report No. 7-636-00-008-P
                                 y Inadequate contract or project
(August 25, 2000)
                                   management
Audit of USAID/Peru’s P.L.                                             y The mission’s status reports
                                 y Performance targets not met
480 Title II Program Results                                             of losses and claims and
                                 y Unreliable or insufficient data
Report No. 1-527-00-002-P                                                underlying supporting files
                                 y Questioned costs
(May 5, 2000)                                                            were well organized.
Audit of the Follow up on
                                                                       y The mission took effective
Recommendations from Audit
                                 y Unresolved recommendations            corrective action to close
Report No. 9-527-96-007 on
                                   from previous audit                   recommendations dealing
USAID/Peru’s Management
                                 y Unreliable or insufficient data       with program monitoring and
of Non-Emergency Title II
                                 y Inadequate contract or project        supervision, transport
Food Aid Programs
                                   management                            logistics, and cooperating
Report No. 1-527-00-003-P
                                                                         sponsor information systems.
(May 5, 2000)
Audit of USAID’s P.L. 480                                              y USAID established policies
Title II Monetization Programs   y Funds control procedures need         and procedures to help ensure
Report No. 9-000-00-002-P          improvement                           efficiency of P.L. 480 Title II
(March 29, 2000)                                                         monetization transactions.
USAID/Bosnia-Herzegovina’s
Bosnian Reconstruction
                                 y Possible funds control violations
Finance Facility Program
                                 y Recommendation for funds to be
(10/1/98–3/31/99)
                                   put to better use
Report No. B-168-00-004-P
(February 25, 2000)
                                                                       y The mission appropriately
Audit of USAID/Guatemala’s
                                                                         managed its P.L. 480 Title II
Management of P.L. 480 Title
                                 y Unreliable or insufficient data       food commodity losses in
II Commodity Losses
                                 y Inadequate internal controls          accordance with Regulation
Report No. 1-520-00-001-P
                                                                         11 and supplemental
(January 21, 2000)
                                                                         guidance.
Change Orders Under
                                 y Funds control procedures need
USAID/West Bank and Gaza’s
                                   improvement
Construction Contracts for
                                 y Unsatisfactory contractor
Water Activities in the West
                                   performance
Bank
                                 y Inadequate contract or project
Report No. 6-294-00-001-P
                                   management
(December 12, 1999)
USAID/Bosnia-Herzegovina’s
Monitoring of Parsons’
                                                                       y The mission was properly
Subcontractor Selection
                                                                         participating in the
Process and Construction         y Inadequate internal controls
                                                                         subcontractor vetting,
Change Orders
                                                                         selection, and award process.
Report No. B-168-00-001-P
(November 19, 1999)




                                                  20
 Performance Audit Report                Issues Identified          Recognized Accomplishments

                                                                    y The mission has taken
Followup on
                                                                      effective actions to justify
Recommendations No. 2 and 3
                                                                      closure of one
from Audit Report No. 1-521-   y Unresolved recommendations
                                                                      recommendation pertaining to
96-005 of USAID’s Disaster       from previous audit
                                                                      the mission’s review of Title
Assistance to Haiti            y Unreliable or insufficient data
                                                                      II loss reports, asset claims,
Report No. 1-521-99-007-P
                                                                      and remittances of amounts
(September 16, 1999)
                                                                      due to USAID.
USAID/Bosnia-Herzegovina’s
Bosnian Reconstruction
                               y Inadequate contract or project
Finance Facility Program                                            y Funds were being used for
                                 management
(4/1/98–9/30/98)                                                      designated purposes.
                               y Need for employee training
Report No. B-168-99-004-P
(August 18, 1999)
USAID/Bosnia-Herzegovina’s
Municipal Infrastructure and
Services Program (4/1/98–                                           y Program activities exceeded
9/30/98)                                                              original construction targets.
Report No. B-168-99-003-P
(August 13, 1999)
USAID/West Bank and Gaza’s
                               y Unreliable or insufficient data
Water Activities
                               y Performance targets not met
Report No. 6-294-99-002-P
                               y Lack of host country support
(February 2, 1999)
USAID/Bosnia-Herzegovina’s
Bosnian Reconstruction         y Inadequate contract or project
Finance Facility Program         management                         y Funds were being used for
(10/1/97–3/31/98)              y Need for employee training           designated purposes.
Report No. B-168-99-001-P      y Risk to project's sustainability
(October 30, 1998)




                                                21
